                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDLTM

Case Number: A07050023                                                                   Page 1 of 1



     OIG opened this investigation based upon an allegation that false Time and Effort reports were
     submitted to NSF by a university1. Time and Effort reports were requested and reviewed. No
     evidence was obtained to substantiate the allegation. Therefore, no further investigative efforts
     are required in this case.

     Accordingly, this case is closed.
